<html>
<title> - IMPROVING PAY FLEXIBILITIES IN THE FEDERAL WORKFORCE</title>
<body><pre>[Senate Hearing 114-139]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-139

          IMPROVING PAY FLEXIBILITIES IN THE FEDERAL WORKFORCE

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
               REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2015

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-881 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
              Gabrielle A. Batkin, Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk


       SUBCOMMITTEE ON REGULATORY AFFAIRS AND FEDERAL MANAGEMENT

                   JAMES LANKFORD, Oklahoma, Chairman
JOHN MCCAIN, Arizona                 HEIDI HEITKAMP, North Dakota
ROB PORTMAN, Ohio                    JON TESTER, Montana
MICHAEL B. ENZI, Wyoming             CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska
                     John Cuaderess, Staff Director
                  Eric Bursch, Minority Staff Director
                      Rachel Nitsche, Chief Clerk
















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lankford.............................................     1
    Senator Heitkamp.............................................     2
    Senator Ernst................................................    13
Prepared statement:
    Senator Lankford.............................................    33
    Senator Heitkamp.............................................    35

                               WITNESSES
                       Thursday, October 22, 2015

Brenda Roberts, Deputy Associate Director for Pay and Leave, U.S. 
  Office of Personnel Management.................................     4
Debra A. Warner, Director of Civilian Force Management, Deputy 
  Chief of Staff for Manpower, Personnel, and Services, 
  Headquarters, U.S. Air Force...................................     6
Linda Jacksta, Assistant Commissioner, Office of Human Resources 
  Management, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................     7
Anthony M. Reardon, National President, National Treasury 
  Employees Union................................................    24
William R. Dougan, National President, National Federation of 
  Federal Employees..............................................    26

                     Alphabetical List of Witnesses

Dougan, William R.:
    Testimony....................................................    26
    Prepared statement...........................................    64
Jacksta, Linda:
    Testimony....................................................     7
    Prepared statement...........................................    51
Reardon, Anthony M.:
    Testimony....................................................    24
    Prepared statement...........................................    58
Roberts, Brenda:
    Testimony....................................................     4
    Prepared statement...........................................    37
Warner, Debra A.:
    Testimony....................................................     6
    Prepared statement...........................................    42

                                APPENDIX

Statement submitted for the Record:
    Federal Law Enforcement Officers Association.................    71
    American Federation of Government Employees, AFL-CIO.........    75

 
          IMPROVING PAY FLEXIBILITIES IN THE FEDERAL WORKFORCE

                              ----------                              


                       THURSDAY, OCTOBER 22, 2015

                                 U.S. Senate,      
                        Subcommittee on Regulatory,        
                      Affairs and Federal Management,      
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:33 a.m., in 
room 342, Dirksen Senate Office Building, Hon. James Lankford, 
Chairman of the Subcommittee, presiding.
    Present: Senators Lankford, Ernst, Heitkamp, and Peters.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Good morning, everyone. I want to welcome 
you to today's Subcommittee hearing, which will focus on the 
topic of pay flexibilities in the Federal workforce. I 
appreciate everyone being here.
    We all want a Federal Government that runs efficiently and 
effectively for the American people. It is a bipartisan goal to 
find Federal employees who are dedicated to serve our fellow 
citizens with excellence. Why would anyone want to have Federal 
public servants that are not skilled and competent for the 
task? Attracting and keeping the best employees to serve in 
Washington, D.C. and around the country is an effort worthy of 
the Subcommittee's time and attention.
    The Federal workforce stretches across our Nation, with a 
different set of opportunities and challenges at each location. 
Some unique considerations within the Federal workforce are 
longstanding and clear. The challenges posed can be as simple 
as the differences in climate and location. Imagine how 
different it is to attract a skilled Federal worker to a post 
in a rural northern town in Alaska than it is to Miami, Florida 
or Tulsa, Oklahoma.
    However, we have also encountered Federal workforce 
challenges that are not foreseeable or are challenging due to 
varying economic circumstances. A prime example of this was the 
unexpected and dramatic 2006 discovery of large amounts of oil 
in Eastern Montana and North Dakota. Since 2006, the oil boom 
in North Dakota has seen an incredible increase in the economic 
activity, such as housing, infrastructure demands, to name only 
just a few. With these demands came an inevitable tug of war 
between the private sector and government to see who could hire 
the best workers.
    I commend Ranking Member Heitkamp for her leadership in 
addressing the very real challenges that face her State and the 
Bakken region and for her work on Federal workforce and pay 
flexibility. I hope that with today's hearing, we can help make 
sure the Federal Government and the private sector have enough 
skilled workers to meet both of their demands.
    We have with us today two panels of witnesses who are 
prepared to share their own perspectives on these issues. In 
our first panel, we have Brenda Roberts, Deputy Associate 
Director of Employee Services, Pay and Leave, from the Office 
of Personnel Management (OPM).
    We have Linda Jacksta, Assistant Commissioner, Office of 
Human Resources Management, from U.S. Customs and Border 
Protection (CBP).
    And, finally, Debra Warner, who is Director of Civilian 
Workforce Management, Deputy Chief of Staff for Manpower, 
Personnel, and Services from the U.S. Air Force.
    On our second panel, we will hear testimony from William 
Dougan, who is the President of the National Federation of 
Federal Employees (NFFE), and Mr. Anthony Reardon, President of 
the National Treasury Employees Union (NTEU).
    We thank each of you for being here this morning. I look 
forward to an informative discussion with our witnesses.
    With that, I recognize Ranking Member Heitkamp for her 
opening statement.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Chairman Lankford.
    I am so pleased that today we are going to focus on a topic 
that is so important to my home State of North Dakota, the 
businesses that operate there, the tribes that operate there, 
and we heard that yesterday as Senator Lankford and I sat 
through a hearing on the failure of the Department of Interior 
(DOI) to move leasing applications and applications for rights-
of-way along, costing, really, tribes millions of dollars in 
lost revenue because their resources have not been accessible 
to the private sector. And one of the issues has been, for us, 
this issue of flexibility and recruitment of a Federal 
workforce.
    As many of you know, I have been fighting to address these 
challenges that have been faced by the Federal workforce in the 
Bakken region of Western North Dakota and Eastern Montana since 
taking office in 2013, so this is a topic that I am well 
familiar with. I think it is the reason why we are here, 
because of the frustrations that we had listening to some of 
the obstacles. Even though intentions for both the agencies and 
for people in your roles in personnel is to do what is fair and 
equitable, the rules somehow get in the way.
    So, I think the Bakken region, although unique in our 
State, serves as a prime example of the drastic impact that 
unique economic situations can have on local and regional 
employment markets. The energy boom has brought new jobs and 
opportunity, but it has also seen a spike in the cost of 
living, in fact, some would say skyrocketing. I like to say, at 
the peak of the boom, the rent rates in Williston, North 
Dakota, would make a New York landlord blush.
    The pay system just was not flexible enough to accommodate 
and remain competitive with the private sector. We would see 
public employees being hired, only to be transitioned off--
especially petroleum engineers, especially people who have 
expertise in managing land and rights-of-way. Very difficult 
for them to hang on. Even if they had a desire to stay in the 
Federal system, what we saw was the inability to do that and 
still feed their families.
    Working in close conjunction with the Office of Personnel 
Management, special pay rates became the most effective path 
forward for Federal agencies in the Bakken. We were able to 
bring the Director of the Office of Personnel Management to 
North Dakota, and I am pleased to say that nearly 500 Federal 
employees across North Dakota were helped with special rate 
increases.
    That is a tribute, and I want to do a shout out to the 
Department of Defense (DOD). I think both the Air Force and the 
Department of Defense saw the unique situation, and when we 
were in a room with civilian employees and I asked how many of 
them were veterans, over half raised their hand. And, that is 
really the message of the civilian employees probably at every 
air base or every military base across the country. They are 
still in the mission. They may not be putting on the uniform 
every day, but they want to participate and to contribute to 
keeping this country safe. But, they should not have to pay an 
economic price to do that.
    I think there is a lot more work that can be done. I think 
there is a lot bigger discussion about flexibility, and that is 
what we hope to get at today, not rehash what we did, but talk 
about where we could have achieved more flexibility.
    One of the great concerns that I have, Ms. Jacksta, is 
obviously staffing the Northern border. The remoteness along 
with the inability to recruit workforce, I think, suggests that 
we may not be doing everything that we can to keep all of our 
border safe.
    And, so, I am looking forward to a productive dialogue this 
morning on the best ways for the Federal workforce to address 
the unique economic challenges, how we can improve the current 
pay flexibility system, and what we can do to make sure that 
our Federal agencies have all the necessary tools at their 
disposal to keep the Federal workforce as vibrant as possible.
    We have had long discussions here about the future of the 
Federal workforce and what that means in terms of the 
millennials. I think the lack of flexibility, putting a very 
dynamic workforce into a very static environment where there is 
not a lot of flexibility, is not a formula for success and 
recruiting the best and brightest. So, this is clearly another 
issue that goes to the future of the Federal workforce.
    And, I want to thank my Chairman, Chairman Lankford, for 
agreeing to do this hearing and for working with us to address 
these Federal workforce issues. Thank you, Mr. Chairman.
    Senator Lankford. I am glad to be a part of this.
    At this time, we will proceed with testimony from our first 
panel, and the witnesses on the panel, I have already 
introduced. Brenda Roberts, Debra Warner, and Linda Jacksta, I 
appreciate you all being here, as well.
    I would ask you, as is the tradition of this Committee, to 
stand and raise your right hand, and be sworn in.
    Do you swear the testimony you are about to give before the 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Roberts. I do.
    Ms. Warner. I do.
    Ms. Jacksta. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect the witnesses answered in the affirmative.
    I do appreciate again you being here today and I would like 
to ask you to begin with your opening statement, beginning with 
Ms. Roberts.

 TESTIMONY OF BRENDA ROBERTS,\1\ DEPUTY ASSOCIATE DIRECTOR FOR 
       PAY AND LEAVE, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Roberts. Thank you. Chairman Lankford, Ranking Member 
Heitkamp, and Members of the Subcommittee, thank you for the 
opportunity to discuss the role of Federal pay policies in 
recruiting and retaining an effective Federal workforce. I 
appreciate the opportunity to have this discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Roberts appears in the Appendix 
on page 37.
---------------------------------------------------------------------------
    As part of our core function, OPM provides a key role in 
regulating, overseeing, and administering the authorities on 
compensation policies, including available pay flexibilities, 
to help agencies recruit and retain their most valuable 
resource, which is their employees.
    As with any compensation system, there are special 
challenges. It is important to remember that each agency's 
mission and needs are different, and Congress has established 
many complex arrangements to accommodate these agencies' needs. 
During this time of tighter agency budgets and sequestration, 
Federal agencies are being very careful in how they allocate 
their human capital resources.
    In light of the current climate, it is extremely important 
for agencies to strategically use pay flexibilities to attract 
desirable applicants and support the retention of good 
employees. In addition, it is just as important for agencies to 
consider non-pay flexibilities that we refer to as workplace 
flexibilities.
    I know the topic of Federal employee compensation has a 
real implication for some of the residents in your State, 
Senator Heitkamp. I am pleased I had the opportunity to join 
you in North Dakota last year and hear directly from your 
constituents about the challenges that they are facing as a 
result of the rapidly increasing cost of living in the Bakken 
area due to the dramatic increase in oil and gas production.
    Agencies have autonomy to determine the appropriate and 
cost effective use of pay flexibilities under Title 5 of the 
U.S. Code. These flexibilities include short-and long-term 
tools that can be used to attract and keep a Federal workforce 
in place. OPM provides guidance to agencies on the various 
flexibilities available and encourages agency headquarters' 
human resources staff to reach out to OPM for advice when 
determining which of the many pay, leave and other workplace 
flexibilities may be best suited to resolve the agency's 
recruitment and retention problems.
    I would like to mention a few of the pay flexibilities that 
the Federal Government has to offer to help with recruitment 
and retention problems. First, I would like to mention our 3Rs 
program, which comprises recruitment, retention, and relocation 
incentives.
    Agencies can also choose to participate in the student loan 
repayment program, under which agencies can repay federally 
insured student loans for candidates and current employees of 
the agency.
    Other alternatives include superior qualification and speed 
needs pay-setting authority that allow agencies to set pay at a 
higher rate for a newly appointed General Schedule (GS) 
employee if the employee has superior qualifications or would 
address a special need of that agency.
    There are also specific pay flexibilities that may be used 
to address long-term staffing difficulties where OPM plays a 
more active role because of the need to ensure agencies operate 
on a level playing field. This can be accomplished with special 
rates when agencies identify a business need to offer higher 
rates of pay for groups or categories of General Schedule 
positions in one or more geographic areas. Special rates may be 
appropriate when there is a need to address significant 
hardships in recruiting and retaining a well qualified 
workforce.
    Agencies can also seek to offer critical position pay. At 
an agency's request, OPM, in consultation with the Office of 
Management and Budget (OMB), can grant and fix a rate of pay 
for one or more positions at a higher rate than would otherwise 
be payable. The position under consideration must require an 
extremely high level of expertise in a scientific, technical, 
professional, or administrative field that is critical to the 
successful accomplishment of an important agency mission.
    In addition to the various pay flexibilities, the President 
has directed OPM to build on our leadership through the 
increased awareness and availability of workplace flexibilities 
and Work-Life Programs to help agencies with recruitment and 
retention problems. These efforts have been fueled in part by 
the President's belief that all employers, including the 
Federal Government, should support parents to ensure they 
contribute fully to the workplace while meeting the needs of 
their families.
    This has led OPM to issue two handbooks in the past year 
emphasizing the importance of workplace flexibilities. OPM's 
guidance will allow agencies to be in a better position to 
assist and educate employees in using these workplace 
flexibilities.
    So, in summary, OPM stands ready to assist agency 
headquarters with the various pay and workplace flexibilities 
available to help ensure the recruitment and retention of the 
strongest employees that this country has to offer.
    Thank you for the opportunity to testify today, and I look 
forward to taking your questions.
    Senator Lankford. Thank you. Ms. Warner.

  TESTIMONY OF DEBRA A. WARNER,\1\ DIRECTOR OF CIVILIAN FORCE 
MANAGEMENT, DEPUTY CHIEF OF STAFF FOR MANPOWER, PERSONNEL, AND 
             SERVICES, HEADQUARTERS, U.S. AIR FORCE

    Ms. Warner. Good morning, Chairman Lankford, Ranking Member 
Heitkamp, and distinguished Members of the Subcommittee. On 
behalf of the Secretary of the Air Force, Deborah Lee James, I 
appreciate the opportunity to appear before you to discuss pay 
flexibilities in the Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Warner appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    When any of our Air Force bases experience severe 
challenges to recruit and retain civilian employees to execute 
its mission, it becomes a concern. But when the base is host to 
two components of our country's nuclear triad, it becomes even 
more alarming and takes on a significantly higher level of 
concern.
    Such was the case at Minot Air Force Base in North Dakota, 
home of the 5th Bomb Wing, Guardians of the Upper Realm, and 
the Rough Riders of the 91st Missile Wing when the economic 
boom from oil and gas exploration in the Bakken region, which 
began in approximately 2006, obtained traction and skyrocketed. 
The usual economic indicators quickly showed that the Bakken 
region and the State's unemployment at incredible lows as jobs 
directly and indirectly related to oil and gas industries, 
along with related businesses, were plentiful.
    Along with the bonanza of employment opportunities and the 
accompanying higher wages and rates of pay came an increase in 
the basic cost of living. Housing became more expensive and 
difficult to obtain, not only for the sudden influx of workers 
seeking jobs in the energy sector, but for the Air Force's 
active duty members and civilian employees, as well.
    For the civilians at Minot Air Force Base who faithfully 
support a highly visible national defense strategy, the allure 
of higher wages and signing bonuses in the private sector was 
difficult to resist. The cost of basic needs, such as food, 
housing, and transportation, reached levels that pushed many 
Air Force civilians to make a difficult choice between 
remaining a part of the Minot Air Force Base team and pursuing 
more lucrative employment opportunities outside the gate.
    It quickly became apparent this challenge was not one with 
a quick fix. It was a chronic challenge, requiring both short-
and long-term solutions. The feasibility of establishing a 
separate locality pay area for the Bakken region was carefully 
considered. However, with locality pay measuring the cost of 
labor, not the cost of living, and only applying to the General 
Schedule population, it was recognized this option would not be 
a complete solution. Ultimately, a decision was made that the 
Air Force should use existing pay flexibilities, such as 
Special Salary Rates and recruitment and retention incentives, 
to help tackle this very difficult problem.
    The effort began in earnest in the summer of 2014 and was 
greatly enhanced with a collaboration between the entire Minot 
Air Force Base team, the Air Force Global Strike Command 
(AFGSC), and the Civilian Workforce Management Directorate at 
Headquarters Air Force. Data was gathered by the Minot Air 
Force civilian-based population, analyzed to support the 
Special Salary Rate request by depicting the employment 
situation and what dire straits we were in.
    Simultaneously, the Headquarters Air Force Civilian Policy 
Office engaged with our colleagues at the Defense Civilian 
Personnel Advisory Service (DCPAS), to advise them of this 
effort and to obtain guidance in assembling the request 
packages in an effort to expedite the review and, subsequently, 
the final review by the Office of Personnel Management.
    The first two Special Salary Rate packages of 25 percent 
for both General Schedule and Federal Wage targeted positions 
was submitted in late September 2014, and the third, with a 35 
percent increase for specific non-appropriated funds (NAF) 
positions, being sent in October 2014.
    The NAF request, which covered five different occupations, 
was approved and became effective in early December 2014. The 
Federal Wage Special Salary package, which included 17 specific 
occupations, was approved in March 2015, and approval for the 
General Schedule Special Salary Rate request covering 15 
targeted positions was received in April 2015.
    In addition to the Special Salary Rate pursuant, local 
officials also approved a payment of 10 percent incentive for 
employees who occupied non-Special Salary Rate-covered 
positions, and that continues today.
    The use of other incentives, such as relocation and 
recruitment, are also used in order to attract new employees to 
fill the vacant positions at Minot Air Force Base.
    The flexibilities available to Federal agencies are 
beneficial in managing these unique recruitment and retention 
circumstances, especially for our Air Force installations 
located in remote or isolated locations.
    In the final analysis, the Air Force civilian employees 
consider it an honor and a privilege to work shoulder-to-
shoulder with the active duty, Guard, and Reserve airmen 
supporting the warfighter. It is vital that the Federal service 
be afforded avenues to obtain, sustain, and maintain an 
effective, stable civilian workforce.
    Thank you for the opportunity to testify today, and pending 
your questions, this concludes my remarks.
    Senator Lankford. Thank you. Ms. Jacksta.

 TESTIMONY OF LINDA JACKSTA,\1\ ASSISTANT COMMISSIONER, OFFICE 
    OF HUMAN RESOURCES MANAGEMENT, U.S. CUSTOMS AND BORDER 
        PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Jacksta. Chairman Lankford, Ranking Member Heitkamp, 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss CBP's efforts 
to utilize pay and compensation flexibilities to recruit, hire, 
and retain our most prized asset, our people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jacksta appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    I come from a family that has deep roots with the U.S. 
Customs Service and CBP. I share that with you because I have a 
profound sense of commitment and dedication to this 
organization and its mission. Throughout my own 30 years of 
service with CBP and the former U.S. Customs Service, working 
in both operational and support positions, I have seen 
firsthand the impact that CBP employees have in fostering our 
Nation's security and economic prosperity.
    I also want you to know that CBP recognizes and values our 
importance to the local communities we support. As our workload 
volumes continue to increase, open border crossings become a 
vital link to supporting the local and national economies, as 
well as our service to local citizens in these areas. We value 
this service and we recognize its importance to you and your 
constituents.
    Since taking office as the Assistant Commissioner, Office 
of Human Resources Management, in August of this year, one of 
my top priorities has been working to recruit, hire, and retain 
the agency personnel needed to accomplish CBP's border security 
mission. Throughout my first 60 days, I have begun to 
strategically assess how to most effectively provide the 
flexibilities we need to ensure that every port, sector, 
branch, and office is staffed commensurate with mission needs.
    Due to the varying nature of CBP's workforce along the 
northern and southern borders, many of our areas of 
responsibility are remote. These locations are often 
accompanied by challenging environmental factors, inaccessible 
medical facilities, limited employment or educational 
opportunities for families, and higher prices for consumer 
goods and services. In addition, these areas are sometimes 
associated with a higher cost of living, as well. Staffing 
those locations with both new hires and experienced existing 
personnel is critical to meeting the operational requirements 
involved for securing the Nation's border against a variety of 
dynamic threats and adversaries.
    Historically, CBP has used some pay flexibilities, to 
include relocation, recruitment, and retention incentives. For 
example, from 2011 to 2014, CBP issued over 100 incentives to 
attract and retain a highly skilled and qualified workforce.
    We are taking a holistic approach going forward to look 
strategically at incentives and other pay and non-pay options 
to identify the best approach to address our recruitment and 
retention challenges. In particular, we will explore the use of 
Special Salary Rates in order to provide employees with an 
increase to their basic rate of pay, particularly in areas 
where there is a higher cost of living, and to give CBP an 
added tool in remaining competitive in attracting and retaining 
a highly skilled workforce. The Special Salary Rate is also 
important as a retention tool, as the pay increase is added to 
an employee's retirement calculation.
    CBP recognizes the impact the Special Salary Rate could 
have on retaining critical personnel. We are already pursuing a 
Special Salary Rate for our polygraph examiners, a severely 
limited resource that plays an imperative role in hiring our 
front-line employees.
    In addition to traditional pay incentives, CBP is also 
looking at alternative non-pay flexibilities geared toward 
enhancing work life balance and professional growth 
opportunities. We are also considering rotational assignments, 
alternative work schedules, and other mobility options in order 
to support the needs of our workforce.
    We recognize that while these pay and non-pay flexibilities 
can help with recruitment and retention, we also understand 
that they are typically associated with financial implications 
which need to be carefully balanced with the other needs of 
CBP.
    CBP's greatest asset are the dedicated men and women who 
pursue our mission every day as they safeguard and manage the 
United States air, land, and maritime borders with vigilance, 
selfless service, and unyielding integrity.
    Chairman Lankford, Ranking Member Heitkamp, distinguished 
Members of the Subcommittee, thank you for holding this 
important hearing, and I am happy to answer your questions.
    Senator Lankford. Thank you.
    I am going to defer to the Ranking Member to do initial 
questions.
    Senator Heitkamp. Thank you so much, Mr. Chairman.
    I was just jotting down here who are these folks in North 
Dakota, and you look at them. They are obviously the civilian 
workforce at the air bases, both Minot and Grand Forks, Border 
Patrol, Customs and Border Protection. We have a number of 
crossings, some of which have huge staffing challenges.
    USDA Farm Service Agency--think about them. I cannot tell 
you, as we were implementing the farm bill, how critical that 
workforce and that relationship was to helping farmers navigate 
a very complicated piece of legislation and help them make the 
best decision for their production.
    The Federal Bureau of Investigation (FBI) the Drug 
Enforcement Administration (DEA), and the U.S. Bureaus of 
Alcohol, Tobacco, Firearms, and Explosives (ATF)--at a time 
when we are really challenged with opiate abuse, challenged 
with more and more cybercrime, challenged with the need to have 
that special expertise in States. Brenda, I am going to get to 
you on FBI, because I think we have some very serious 
challenges in staffing in North Dakota.
    Air traffic control, the Transportation Security 
Administration (TSA), all people who not only serve, wear the 
mantle of public servant and public employee, but are essential 
to the economy of my State.
    And, so, I think sometimes we look at them as an add-on or 
an adjunct, but these--whether it is people at DOI who are out 
reviewing grassland plans at Forest Service or DOI managing 
their right-of-way portfolio, these are people who try and 
integrate with the community. We have great relationships, 
certainly in law enforcement. I knew that from when I was 
Attorney General.
    With that said, I think it is important we always put this 
in the context of why it is so vital to our economies that we 
have a vibrant and available and flexible Federal workforce.
    So, with that said, Brenda, I am going to give you a 
problem and you tell me how you think you can solve it. We have 
horrible cases of abuse and drug crimes on Indian reservations. 
We do not have one FBI agent which is located in Indian 
Country. We do not have one DEA agent. We do not have one ATF. 
And, so, there is no cop on the beat for major crimes in my 
State.
    So, what they would say is, look, we just cannot get 
someone to live in New Town. We cannot get someone to live in 
Belcourt. So, what would you say to the FBI as they are looking 
at recruiting in terms of the tools that they could use to 
really provide some very high level incentives to relocate to a 
remote location, a less desirable location?
    Ms. Roberts. The first thing I would consider would be 
recruitment incentives to try to get them in the door. If they 
had folks there, I would recommend retention incentives, also--
--
    Senator Heitkamp. They have no one there.
    Ms. Roberts. So, superior qualifications pay setting in 
order to get them on board. I would probably want to talk with 
the FBI and discuss with them a little bit more about what they 
have been doing and try to help them through the process.
    Senator Heitkamp. I mean, I think the fact that there is 
not, here, plug it in, this is the need, let us make sure that 
this happens. I mean, we hear this all the time.
    And Ms. Jacksta, obviously, I am greatly concerned about 
the problems--not because you are not a great organization, 
obviously. I think a lot of people who work for Customs and 
Border Protection and Border Patrol tend to come from the 
Southern border. The Northern border is a little intimidating, 
especially in remote places like Portal.
    We are going to continue to beat this drum. Senator Ayotte 
and I have a bill that talks about looking at the Northern 
border and the unique challenges. What would you suggest could 
be done or whether we could, in fact, have OPM be more 
responsive to some of the concerns?
    Ms. Jacksta. Thank you, Senator. I recognize that concern 
that you have with respect to recruiting and retaining 
employees in these remote areas. From a CBP perspective, I am 
not sure that it is a one-size-fits-all approach, and I will 
give you a good example. With respect to North Dakota in 
particular, we have challenges staffing both Portal and 
Pembina.
    Senator Heitkamp. Right.
    Ms. Jacksta. The greater challenge of the two is Portal. 
So, if we were to implement----
    Senator Heitkamp. For people who do not know, Portal is 
much more remote. I mean, Pembina may sound remote to you. That 
is, like, urban compared to Portal. [Laughter.]
    Ms. Jacksta. Thank you, Senator. So, if we were to employ 
the same incentive-type program for both locations, Portal 
would lose out every time.
    Senator Heitkamp. Yes.
    Ms. Jacksta. And, so, for us, we need to take a more 
surgical, precise, and thoughtful approach to each of these 
ports, sectors, stations, and branches to see what other ports 
are in the other areas, what is the workforce composition of 
those different locations, because if we want new folks, that 
might be a recruiting incentive. If you want experienced folks, 
it might be something else, maybe a relocation incentive.
    So, I share that with you because I do not know that it is 
a one-size-fits-all, but it might be a combination of a couple 
of different incentives.
    Senator Heitkamp. So, at your level of managing this are 
you looking strategically at each one of these border crossing 
locations' staffing and then creating a unique and surgical 
plan for increasing staffing and providing incentives for 
people to locate there?
    Ms. Jacksta. Senator, that is the plan that we are 
committing to take on in fiscal year (FY) 2016. I think, 
historically, we have had some limited funding for incentives. 
Candidly, before sequestration, we were spending more money on 
incentives. We are revamping that approach right now, and I 
really want to take a more strategic approach and look at all 
of the different occupations, law enforcement and non-law 
enforcement alike.
    Senator Heitkamp. What is the average length of stay for a 
Border Patrol agent in a place like Portal?
    Ms. Jacksta. I do not have the specific details on Portal. 
However, I can come back to you and I can take that for the 
record. I will say that when people go into the remote 
locations, they typically do not want to stay there for an 
extended period of time. So, one of the things we want to put 
on the table is really looking at rotational assignments and 
not to exceed.
    Senator Heitkamp. And, I would say, be a little careful 
with that, because so much of their ability to do their job is 
that relationship that they have with the county sheriff, the 
relationship that they have with the nearest chief of police, 
perhaps with, in our case, the Bureau of Criminal 
Investigation, which is managed by the Office of Attorney 
General. And, so, those relationships can really enhance the 
mission of Border Patrol. But if you simply always rotate 
someone in and out, those relationships do not get as solid.
    So, incentives to actually stay would be a recommendation 
that I would have. As you said, rotate them in and out, but 
also understand that there is a real value to those ongoing 
relationships, especially when you are serving in a law 
enforcement capacity in a remote location.
    Ms. Jacksta. Yes, Senator.
    Senator Heitkamp. You have to rely on each other.
    Ms. Jacksta. Yes, Senator, and I do recognize that we enjoy 
a high degree of camaraderie with the local law enforcement in 
your State and we often do support them, particularly on the 
air and marine side, as well.
    Senator Heitkamp. Yes.
    Ms. Jacksta. They do a lot of reconnaissance and work to 
support the local efforts there.
    Senator Heitkamp. Yes.
    Ms. Jacksta. We do value those----
    Senator Heitkamp. This is in no way--I do not want anyone 
to take this--this is in no way a complaint about the people 
who are there. We just do not have enough people.
    Border protection is a little like a balloon. If you 
squeeze it in one place, the pressure is going to go to another 
place, and if people know, look, there are these remote 
locations, there is no staffing there, this is a way to 
basically come into the country for nefarious reasons, we are 
only as good as the weakest link, right?
    Ms. Jacksta. Mm-hmm.
    Senator Heitkamp. And, so, that is, I think, a real 
challenge for us.
    Deb, I guess the only thing I want to say is you guys were 
great to work with and I think it worked well with OPM because 
you stepped up. That has not been our experience with all the 
other agencies, and I know part of that was driven by our last 
discussion here. But, what advice would you give to other 
agencies, given what you have been able to do from a DOD 
standpoint, from an Air Force standpoint, just helping them 
kind of navigate that challenge?
    Ms. Warner. Yes, Senator. Thank you. And I think the 
catalyst, as you mentioned, when you met with the OPM Director 
and got the ball rolling, and then aggressively getting at it, 
dissecting it, as Ms. Jacksta has stated, what they plan to do, 
not a one-size-fits-all.
    One of the things that I appreciated about this opportunity 
was the opportunity to visit with these two folks on my right 
and left, that we can share lessons learned and how can we get 
at this. We were behind with Minot. Obviously, we were. And we 
now have a tool kit that we can use and we have many remote 
locations. We have locations overseas that provide additional 
challenges.
    What I would say is, do not take a one-size-fits-all 
necessarily. Partner with--the labor unions in the local area 
were a huge help. The DCPAS community was a help, OPM. It is 
almost like they struggle out there and they do not want to 
elevate it because they think they can resolve it, and then the 
next thing they know, they have 150 vacancies on a 500-
population location. We need to get at it sooner rather than 
later.
    So, those are lessons learned, and I do not want these 
folks to have to go through that, and I think I know OPM, the 
handbooks that they have prepared. But, we definitely are using 
this, not only at Minot, but other remote locations, as well.
    Senator Heitkamp. Well, I just want to thank the Department 
of Defense and the Secretary of the Air Force and, really, the 
command on the uniform side of the Air Force who really stepped 
up and said, we cannot operate the air base under these 
conditions. And, so, I think it really, like you said, it ended 
up almost being in crisis before we got there, but certainly, 
things moved very fast and very aggressively, by no small 
measure thanks to the help of the Office of Personnel 
Management.
    Ms. Warner. And if I could add, as well, not only, and you 
mentioned, Ms. Jacksta, not only the Special Salary Rate and 
how we pursue that for specific occupations that we know we are 
losing, but also, as you said, the leadership took a step out 
and said, how about for the non-Special Salary Rate we have a 
10-percent that we can add into. How about looking at the 3Rs, 
relocation and the retention that we needed, the retention and 
the recruitment incentives. And I think all of those things in 
the tool kit are what we had to apply.
    And, I can tell you, since that approval in the mid-summer 
timeframe, and earlier for the non-appropriated, we have seen a 
2 to 3 percent increase in our staffing, our ramping up. We 
have over 100 actions in the pipeline right now that we are 
pursuing, and I think we are going to see significant 
improvement over the next 6 months, ma'am. Thank you.
    Senator Heitkamp. Thank you so much. And, if I can just 
make one point, this whole problem, it seems to me, transitions 
to our broader issue, which is how do we recruit the next 
generation of Federal workforce, and we know that is a 
different animal than, we are here for a career. We are going 
to stay the rest. And the incentives that you may think you are 
offering that would drive the certainty or whatever it is, the 
retirement plan, whatever is going to drive the next 
generation, that may not be what they are looking at. And, so, 
I think we can take the lessons and the cooperation that we see 
between OPM and the agencies here and maybe take that one step 
further and think about the new Federal workforce.
    So, this is a good little exercise of meeting the next 
challenge, which to me will be--even in places where people 
want to live--recruiting a Federal workforce.
    Thank you, Mr. Chairman.
    Senator Lankford. Absolutely. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, ladies, for being with us today. And hopefully, 
through this discussion, we can find some valid solutions to 
some of these issues. So, I think this is a very important 
topic.
    Ms. Jacksta, I will start with you. You mentioned in your 
testimony that Federal agencies are only allowed to offer those 
retention incentives to those employees that are likely to 
leave Federal service. And you also made note that it is 
because of these circumstances that CBP is unable to offer 
retention incentives to those Federal employees who do not want 
to leave Federal service, but want to move to another desirable 
location. Can you explain maybe what the rationale for that 
policy is?
    Ms. Jacksta. Thank you, Senator. For the specific policy 
guidance, I will defer to OPM. However, I would like to 
characterize some of the workforce challenges that we have and 
why this issue is important to us.
    For example, we have a lot of lateral movement between 
occupations, particularly between the CBP officer and Border 
Patrol agent occupations, and some of those are due to 
mobility. The different segments of the workforce want 
different options to be more mobile. So, in the Office of Field 
Operations with the CBP officer occupation, they might be in 
more metropolitan areas. And the Border Patrol, with the Border 
Patrol agent occupation, they might be in more remote areas. 
That is not to say we do not have remote areas in both, but 
generally speaking, that is what we see.
    And, so, if we know that Border Patrol agents are looking 
for other mobility options and are looking to go to a different 
field altogether, the CBP officer occupation, and we want to 
keep them there and offer them a retention incentive, because 
they are not leaving Federal service but they are leaving the 
occupation, we are somewhat constrained. And, so, then, what is 
the solution to address that issue?
    Senator Ernst. Right.
    Ms. Jacksta. And, so, that is where we get into, do we need 
to look at a Special Salary Rate? Do we need to look at other 
options in mobility, whether they are temporary assignments or 
other options that will allow us to meet the needs of the 
mission while also meeting the needs of this workforce.
    Senator Ernst. OK. And, Ms. Roberts, would you like to add 
on to that?
    Ms. Roberts. It is a requirement in the regulations. Why 
CBP is actually doing this is the regulations are written in 
such a way that they have to be likely to leave Federal 
service. However, I would like to be able to work with CBP to 
see if there is something that we can do in order to address 
the problem that they are having with the Border Patrol.
    Senator Ernst. Good. No, that was my next question, too, 
was is it possible to go back and revisit this policy so that 
we can find a way to make it work between these agencies.
    Ms. Roberts. I would like to take a look at that.
    Senator Ernst. Yes. Very good.
    And, again, I think that we need to look for those 
solutions here so we can actually solve these problems. So, I 
appreciate the dialogue that you have, and if you would be able 
to share that with our Committee, as well, in the future.
    And then, also, Ms. Roberts, for you, in May, this 
Subcommittee had a hearing that was entitled, ``21st Century 
Ideas for the 20th Century Federal Civil Service.'' Much of the 
discussion during that hearing focused on what is needed to 
recruit and retain the best workforce and how we needed to 
modernize the system that we are using.
    One of the things I touched on was the user frustration of 
the USAJOBS website, and I know we are all familiar with that, 
and how it has actually discouraged people or applicants from 
applying due to its really cumbersome process. And, it has been 
very hard to attract especially those young millennials that we 
would like to see coming into government service.
    Can you maybe update me on where OPM is in the process of 
revamping the USAJOBS.gov website?
    Ms. Roberts. As part of the President's Management Agenda, 
they are looking into what they call untying the knots on a 
number of different things. I am not per se the expert on the 
hiring flexibilities. There is another area in OPM that deals 
with that, but I would be happy to take that question back and 
get back with you.
    Senator Ernst. Yes. That would be very helpful. I 
appreciate that very much.
    I am going to go ahead and, again, Ms. Roberts, you 
hopefully have all the answers today here.
    Ms. Roberts. I am not sure. [Laughter.]
    Senator Ernst. There are several articles out there, and we 
have seen them, about the huge demand for work in the Bakken 
region. I mean, it is all over. People in Iowa talk about this 
a lot. And, I believe their unemployment rate is down between--
somewhere around 1 to 2 percent, I believe. And, so, you have 
to not want to work in that area to be unemployed.
    So, one of the articles I saw, it mentioned that a 
gentleman moved to the region and had a job within one hour of 
getting there. And, I understand the salary difference is an 
issue that is specific to this region, but there are also other 
reasons why the Federal workforce is challenged to find those 
quality workers, and one of those reasons is the cumbersome and 
timely hiring process. I do hear from a number of folks that 
when they submit to USAJOBS, it is like their resume went down 
a black hole. That is one phrase I have heard before. And 6 
months later, they get some sort of acknowledgment or 
recognition that their application was received. So, we can see 
there is definitely a problem with USAJOBS.
    And then, again, going back to just different ideas, are 
there ways that we can streamline? Of course, if the other 
ladies would like to interject, as well. We really would like 
to have more of a private sector approach to hiring, if at all 
possible. Do you think that is something that can be done and 
are there efforts that we could really push to make that 
happen?
    Ms. Roberts. Again, I am not the hiring person, I am sorry 
to say.
    Senator Ernst. That is OK.
    Ms. Roberts. But I would be happy to get those answers for 
you. I know OPM has a lot that we are doing with respect to 
hiring and trying to resolve a lot of the issues agencies are 
coming in about, and we are meeting with agencies on a regular 
basis. So, any questions you have on hiring, I would be happy 
to take them and get back with you.
    Senator Ernst. OK, and we will submit those questions to 
you. I thank you.
    Any other input on the hiring process and maybe what would 
be good to streamline it?
    Ms. Warner. Senator Ernst, thank you again for the 
opportunity to speak to this. I do have the opportunity, 
representing the Air Force, to sit on some DOD committees, the 
Civilian Personnel Policy Council, for one, and we are really 
exploring all of these. The same stories you are hearing, the 
application goes into the black hole, USAJOBS, we have to have 
a better solution. Obviously, we need to fill jobs faster than 
90, 120 days, how we can get at that.
    I can tell you, as far as from a DOD perspective, the 
working groups that I am sitting on, they are aggressively 
getting at the USAJOBS and adding features under the New 
Beginnings, which was the umbrella after the repeal of the 
National Security Personnel System back in 2010. They 
established what they call New Beginnings, and New Beginnings 
is everything from a new DOD performance system for the 
Department as well as getting at the hiring process, the tools 
that are being used.
    And one of those that is part of the New Beginnings is with 
regard to more interaction with the applicant. I do not want to 
submit my resume today and 6 months goes. I have no idea if I 
am a candidate, if I am being looked at----
    Senator Ernst. Right.
    Ms. Warner. So, they give them periodic updates throughout 
the process, and they are working--they have done some 
improvements and they are still on a journey.
    And, I can tell you, with Mr. Dougan here with us, he has 
been a part of that working group for New Beginnings and 
helping us. We work and partner with our labor teams, the 
national labor unions here in the local area. How can we make 
this experience better?
    So, for Department of Defense and specifically the Air 
Force, I would like to say, we are actually taking the entire 
hiring process, from the time we anticipate--someone says, I am 
going to retire in 2 months--until the time we put someone in 
the chair, we have analyzed that and breaking it into chunks 
and leaning it, if you will, improving the business process. 
So, the Air Force is really taking that on because we realize 
and recognize we cannot afford to have the Department of 
Defense and the Air Force positions with critical missions 
going vacant 90, 120 days.
    So, we are getting at that, and the Air Force is seeing 
some improvement in our hiring process. It is just taking us a 
little bit of time to turn the Titanic, but we are getting 
there, ma'am.
    Senator Ernst. Very good. That is encouraging to hear. How 
long have you been utilizing this New Beginnings program?
    Ms. Warner. Well, actually the New Beginnings 2010 was when 
we started the journey on the performance piece and it is 
continuing to roll out. I think we are anticipating a Secretary 
of Defense memo--and I do not want to get ahead of what DOD is 
going to push out--but sometime in November, late October, 
maybe, which will speak to the New Beginnings and all that that 
entails, everything that we are trying to do to improve the 
experience and the process of hiring and the tools for our 
employees, for our managers.
    They actually put out a hiring managers tool kit. It is 
already posted out on the Department of Defense for us to use 
which guides--when we start talking personnel, we have 
managers--we are speaking a foreign language. How about a tool 
kit that can help walk them through that? So, that is actually 
being published and the Secretary of Defense is going to push 
something out to speak to that and talk to----
    Senator Ernst. That is very good. Like I said, it is 
encouraging to hear that, and as you see things that are really 
working very well within DOD, if that is something that we can 
share with the rest of our hiring managers across the board in 
Federal Government, I think that would be extremely helpful to 
all of us, so thank you very much.
    Ms. Warner. Thank you.
    Senator Ernst. Thank you. Thank you, Mr. Chairman.
    Senator Lankford. Absolutely.
    All right. Let me pile on, because I have multiple military 
installations in my State, including Tinker Air Force base, 
which is obviously a very significant sustainment depot. They 
have the same issue. They want to hire somebody, but in a great 
workforce location like Oklahoma is right now, people get 
snapped up. And, so, someone comes in, whether it is McAlester 
and the Army Ammunition Depot, or whether it is Tinker Air 
Force Base and the very large, very well qualified, excellent 
civilian workforce that is there. They have an opening. They 
come through the application process, and 4 months later, they 
hear back. Well, they are not going to wait 4 months. In 
Oklahoma, they are going to get snapped up in another job, in 
another place. And when they get the call, yes, you are hired, 
they are going to be saying, ``Great. I have already started 
and been working at a different place for the last 3 months.''
    Ms. Warner. Mm-hmm.
    Senator Lankford. Now, they have to decide if they are 
going to leave that place to be able to come back and work for 
the Air Force.
    Ms. Warner. Mm-hmm.
    Senator Lankford. This is an issue we have to solve, and it 
is more than just, ``We are going to call you occasionally,'' 
because now we are stringing someone along. It has to be an 
efficient process.
    What I heard you say was, we are getting better at 2 months 
in advance to make sure there is not an opening out there, but 
to get qualified people, we have also got to have an efficient 
process. What can be done so that person is not strung along 
for 3 or 4 months in the hiring process, to be able to fix that 
part of it? So, we have a qualified person who meets the 
minimum criteria. We put them in place and start the task.
    Ms. Warner. OK. Senator, thank you. Your timing is 
absolutely perfect.
    Senator Lankford. Good. I like to hear that.
    Ms. Warner. Absolutely. At Tinker, well aware of the 
challenges that we are having in that area, working with the 
Air Force Materiel Command (AFMC). And, I believe last week, 
and it may have been the week prior, we actually sent a team to 
Tinker to peel this back. I understand they want to hire 1,000 
employees, and I do not have the occupations handy with me, but 
they want to hire 1,000 and they want to do it in 30 days. How 
are we going to get at it?
    So, we have recruiters. We actually sent folks from the Air 
Force Personnel Center to Tinker to start getting a working 
group in order, and we have been in conversation with AFMC for 
quite some time, trying to streamline everything from the 
security process. The front end of hiring, we seem to have it. 
We are basically projecting. We have provided tools. Do not 
wait until the day that you have someone leaving to start 
recruitment----
    Senator Lankford. Right.
    Ms. Warner [continuing]. Because if it takes 120 days, you 
are behind the curve. So, we have provided workforce guides, 
trying to help them get at, if you lose 10 contract specialists 
a year, then probably you need to overshoot your target and do 
not wait until they are vacant. So, we are providing those 
tools.
    But, nonetheless, what we need to do is Human Resource (HR) 
needs to be more hands on with management, and as you know, we 
have centralized at the Air Force Personnel Center, much like 
our sister services. And there are times we need to go on the 
road, and we did that. We sent a team out there----
    Senator Lankford. So, give me a good length of time. If 
someone applies----
    Ms. Warner. Mm-hmm.
    Senator Lankford [continuing]. For a job, there is a job 
opening and someone applies for it outside--now, if they are 
inside the workforce, I understand it is a different dynamic.
    Ms. Warner. Correct.
    Senator Lankford. They will be transferred to different 
places.
    Ms. Warner. Correct.
    Senator Lankford. Outside----
    Ms. Warner. All right.
    Senator Lankford. New people in this situation. How long is 
a reasonable amount of time that it should take before 
application--and they are qualified, let us just start there--
--
    Ms. Warner. Right.
    Senator Lankford. This is a qualified individual and they 
are hired.
    Ms. Warner. OK. Obviously, the Office of Personnel 
Management goal is our 80 days from the time that we begin the 
recruitment action until we have an entrance on duty. The long 
pole in the tent, the area that takes the longest--and we are 
tracking, 15 days for a manager to take a selection. If they 
had to set up the interviews, it takes a little longer. The 
process to issue a certificate to a manager, we have that 
built, like, within 10 days from the time you receive it, you 
need to have that certificate.
    The area that we have to get at is the back--what I call 
the onboarding--security clearance, physical exam, drug 
testing. The employee getting released from their employer does 
not take that long. The part that takes so long is what we call 
the pre-employment process, and that could take and is taking 
upwards of 60 days for that piece.
    The front end, we have it pretty well through. It is the 
tail end that we have to get at, and we are trying to think of 
ways that we can do this. Obviously, we do not want to risk 
security at our locations by saying, we will bring you on with 
waivers----
    Senator Lankford. Right, and we will check you later.
    Ms. Warner. But they are doing some of that, where they can 
bring folks on and then be pursuing the security clearances. 
Obviously, there is a lot going on with OPM with the security 
area that we are trying to get through, as well.
    Senator Lankford. So, can I ask the nice person next to you 
why it takes 60 days to be able to do security clearances? Ms. 
Roberts, what do you think, and why are we stuck at this point?
    Ms. Roberts. I am sorry. I cannot speak to that question. 
That is not my area of expertise.
    Senator Lankford. We need to find a way to be able to 
resolve this because this is repeated not only for the United 
States Air Force, but all across the Federal workforce. The 
length of time that it takes to do onboard, we are losing out 
on some good people that want to be able to serve their fellow 
citizens in Federal service. They have come. They pursued it. 
They are interested in it. But they are also going to feed 
their family, and 2 months into this, they are going to give up 
and they are going to go somewhere else. They are a qualified 
person that later a manager is going to say, that is the person 
I wanted and I cannot get. Now the manager is frustrated they 
cannot get the person they want. That person is saying, I 
really wanted to take that job, but I took a different one. We 
have to figure out how to fix this. So, how do we get out of 
this cycle?
    Ms. Roberts. I understand your concerns and I will take 
that back.
    Senator Lankford. That would be great.
    Ms. Warner. And, Senator, if I could add, the folks at 
Tinker, the human resource community, the management community, 
the labor community, have really helped us, and they have 
stepped up. Over a year, we have had a working group, what we 
call Rapid Improvement Advance, to try to take chunks, the 
entire spectrum, and break it apart. So, we appreciate that 
they are really--because the Air Force Materiel Command is 
about 48 percent of our Air Force civilian population.
    Senator Lankford. Yes. No, it is----
    Ms. Warner. So, they have a vested interest in it.
    Senator Lankford. I have to say, it is a phenomenal team at 
Tinker.
    Ms. Warner. They are.
    Senator Lankford. Team Tinker is really an amazing group of 
leaders up there, from General Levy all the way through the 
process, through our civilian, our union folks. They cooperate 
very well together. But this issue is also repeated at 
McAlester. It is repeated all over multiple bases and issues 
and it is across our workforce. I am sure CBP deals with some 
of the same issues of length of time on that.
    Let me ask a question, as well. One of the things you 
talked about--and I am going to move to other people, as well, 
so I am not picking on you today. But, you talked about when we 
deal with North Dakota and that the boom started in 2006, and 
then working through the process of deciding locality pay or 
special salary packages and working through that process.
    Ms. Warner. Mm-hmm.
    Senator Lankford. The difficult thing for me to hear is the 
boom starts in 2006. The transition in jobs is well on its way 
in 2007.
    Ms. Warner. Mm-hmm.
    Senator Lankford. And special salary packages were approved 
in March and April 2015.
    Ms. Warner. Mm-hmm.
    Senator Lankford. That is a long 9 years of trying to fight 
for employees. How do we get more agile in making decisions 
across our structure, whether it is United States Air Force or 
any of our other areas, to be able to see this trend, because 
that trend goes down, as well. I mean, there will be a time, as 
it has been in Oklahoma, where I serve, and it will be in North 
Dakota some day a long time from now, when the oil boom goes 
down and suddenly that pressure is not there.
    Ms. Warner. Right.
    Senator Lankford. How do we become more agile, that it does 
not take 9 years to move from boom to we are going to adjust 
pay?
    Ms. Warner. Right. In taking a look at the history that I 
tried to do for this, and exactly what you are saying. In 2006, 
what is going on? And it gets me back to the position I had 
said earlier. Do they think they want to try to figure it out 
on their own and then they get in so deep that they are so far 
behind the curve that now it is a crisis? That could have 
happened.
    What we do know is back in 2012, we tried to pursue--they 
thought locality pay, let us get at that. Whether or not we had 
individuals who talked about Special Salary Rate, whether they 
wanted to come to the air staff, but what I see on the record 
is around 2012, they came to the air staff policy----
    Senator Lankford. Let me just ask, is the locality pay an 
easier trigger, an easier hurdle in that, or----
    Ms. Warner. No, sir----
    Senator Lankford. Tell me, when they are making the 
decision, how are they going to decide between the two, because 
I understand all those options are on the table. You have the 
3Rs.
    Ms. Warner. Right.
    Senator Lankford. You have locality pay. You have the 
special packages.
    Ms. Warner. Mm-hmm.
    Senator Lankford. How do you make the decision?
    Ms. Warner. And that is what I think, as an Air Force, what 
we have done is try to educate the community on what the tools 
are in the tool kit. And I know that OPM can speak to locality 
pay, but I will offer up what I have on that.
    The locality pay gets more at wages in the local area 
versus cost of living in the local area, and that was pursued. 
I think the Federal Salary Council, there was a package that 
went forward. It was disapproved and then we started the 
process in 2013. They tried another reattack from the 
installation. The leadership said, let us go forward, let us 
give it another shot, and it did not make it through DCPAS.
    And then, at some point, someone said, well, we have other 
tools in our tool kit, and I think OPM even offered up, hey, 
why are you not using the tools that you currently have 
aggressively? Let us put together a working group.
    So, I think, again, sir, they did not get ahead of it where 
we should have, and right now for the Air Force, we have 
provided the tools at every location, and if there are any 
locations who are struggling, what we want them to do is not be 
afraid to raise your hand and come to the air staff and say, I 
cannot figure this out, or why do you not help me? I am 
overwhelmed.
    Senator Lankford. OK.
    Ms. Warner. Because a lot of our installations, we may be 
one and two deep in expertise.
    Senator Lankford. Sure.
    Ms. Warner. So, thank you, sir.
    Senator Lankford. So, Ms. Roberts, help me out with this. 
How does that information get out? I know you released these 
different documents, these workbooks on it. You have the tool 
kits that are out there. Do you feel like the agencies now have 
the understanding of the things that are in their tool kit so 
they can be more agile in these moments? Because it obviously 
left North Dakota in a lurch in a lot of ways, in a very 
difficult situation across multiple entities.
    So, that will happen again in other places. How do we 
address this?
    Ms. Roberts. I would say, to feed off of what Ms. Warner 
has stated, we did not realize a lot of the problems that were 
happening in 2006. It was not brought to our attention at that 
point. And, I think agencies were trying to fix the problem on 
their own at that point.
    So, when 2011, 2012, and 2013 came about, that was the time 
of the pay freeze. No special rates were approved during that 
time. They were frozen. So, there was nothing that they could 
really address.
    Senator Lankford. OK.
    Ms. Roberts. So, then comes 2014, 2015. You have your 
little bit of an increase, so you start getting some relief. 
So, we have started seeing the requests come in now. We 
approved three special rate requests in 2014. I think there 
were five in 2015.
    To address the locality pay issue, individuals in the 
Bakken region started out wanting locality pay, which was not a 
viable solution. Locality pay is not a pay flexibility. It is 
something that is governed by law and regulation. The Federal 
Salary Council makes the recommendations to the President's Pay 
Agent, that is made up of OMB, OPM, and Department of Labor 
(DOL).
    Senator Lankford. That is the type of thing--they started 
chasing something----
    Ms. Roberts. That is right.
    Senator Lankford [continuing]. Doing the paperwork, doing 
the process on something that----
    Ms. Roberts. Absolutely.
    Senator Lankford [continuing]. OPM already knew it was 
going to be a dead end at that point, so----
    Ms. Roberts. And we----
    Senator Lankford. That is what I am trying to talk about, 
is how do we actually make sure in the bureaucracy and of all 
the different options they are chasing----
    Ms. Roberts. I think education, sir. I think that is the 
answer. And I think----
    Senator Lankford. Do you feel like that is happening from 
OPM now, with the new books that are coming out?
    Ms. Roberts. Absolutely. I was very happy to have the 
opportunity to go to Bakken, because that identified a lot of 
the problem for me. When we arrived at Bakken, they thought 
there was only one solution, locality pay. And we did mention 
that there were other pay flexibilities available, but I do not 
think they were educated on that process, because there were 3 
years of no one using any flexibilities at all. So, I think we 
had to go and reeducate the Federal community on what was 
actually available to them.
    Senator Heitkamp. I just want to mention something in this 
context----
    Ms. Roberts. Sure.
    Senator Heitkamp [continuing]. Because I think it goes to 
what you were saying. People on the ground get in over their 
head. They are not dealing with people in Washington, D.C., who 
actually make the decision. They are assuming, look, this is 
what--I mean, the Federal work group that was put together, led 
by Department of Interior, really, I think, did not know what 
all those tools were----
    Ms. Roberts. Right.
    Senator Heitkamp [continuing]. Because of the diversity 
represented, whether it was USDA or whether it was DOI or even 
looking at some of the other agencies. I think they just 
muddled through it until you showed up. But, it does point out 
that when you have an engaged agency, like DOD and the Air 
Force, it is a lot easier to get this done.
    Ms. Roberts. Absolutely.
    Senator Heitkamp. And, so, one of the challenges that you 
have is OPM is not going to know what the challenges are out 
there if the agencies do not bring it to them, and a lot of 
times--in North Dakota, we do not have a large Federal 
workforce, so it is the tail wagging the dog. It is not 
something that got a lot of attention until we forced it to get 
attention.
    And, so, I think to Senator Lankford, Chairman Lankford's 
point, how do we get more agencies to get ahead of it and then 
make this a priority as they are looking at the workforce?
    Senator Lankford. Those are good points. Let me go ahead. 
You can make a comment on that, as well.
    Ms. Roberts. To comment on that, I would say we are trying 
our best to get the information out to the Chief Human Capital 
Officers (CHCO). Like, for example, with the Science, 
Technology, Engineering, and Math (STEM) occupations, we are 
taking a very close look at the STEM occupations now. We are 
communicating with that community in various conferences. And 
we are just trying to get the message out. And if there are any 
other ideas that you may have, we are more than happy to 
consider them.
    Senator Lankford. OK. Let me make two quick comments, and 
then we need to move to our second panel. I will see if there 
are any other questions the Ranking Member wants to have on 
this, as well.
    Ms. Jacksta, just as a comment on this, I heard several 
times about trying to move people to remote areas. Oklahoma 
State University has done a very good job in their medical 
school of actually reaching out and recruiting people in rural 
areas to consider medical school, because they found that rural 
hospitals were having a difficult time hiring doctors because 
they were trying to hire a doctor that grew up in an urban 
place to move to a rural spot. And, so, they flipped it and 
started recruiting people in rural areas to consider medical 
school and incenting them back to rural hospitals. It has been 
a great project. Oklahoma State has been very good at it and it 
has been a quality thing.
    Is that mindset also in place, or is it a sense of we just 
open it up for CBP hiring and then we may end up sending 
someone that grew up in Chicago to try to end up in North 
Dakota and they say it is just not a fit? I would tell you, 
rural folks love going to rural areas. It feels like home to 
them. But sending someone from an urban area to a rural area is 
a big stretch. So, tell me where you are in the recruiting for 
that.
    Ms. Jacksta. Thank you, Senator. So, I would say, over the 
last 6 months, we took a very different approach to our 
recruiting and we established a National Front Line Recruiting 
Command Construct. So, we brought in our operational elements 
where we had the biggest challenge in filling positions, both 
in the Office of Field Operations and the United States Border 
Patrol and also air marine, and we used data. We actually 
gathered data over a 5-year period by zip code. We identified, 
where have we been successful as an organization in recruiting 
and retaining Border Patrol agents, CBP officers, air marine 
staff, and that data was very telling.
    And, to your point, Senator, what we had learned is a lot 
of different behaviors of where people live versus where they 
want to apply and work, and there is a lot of commonality 
there.
    We also were able to pinpoint with some degree of precision 
which zip codes we should go to, which colleges and 
universities we should go to. We looked at the unemployment 
index of those locations, thinking if we could actually make a 
bigger difference, not just satisfying our own need, but making 
a difference in these local communities where the unemployment 
index might even be higher, if we can fix that paradigm, that 
would be a win-win for everybody.
    So, that paradigm has been formulated over the last 6 
months. We issued targets to every field office and every 
sector and every branch to go out and do that recruiting. And 
thanks to the reprogramming request that was approved, we were 
able to have some additional monies allocated so that we can 
build that base and build that recruiting effort.
    Senator Lankford. OK. Wonderful. Let us know on the 
progress on that, because that will be key for actually 
recruiting people to be able to go and stay, and it may be a 
consideration to find people that have a love of working in 
rural areas, to not have to move them as rapidly, to develop 
these relationships, because that will be a key.
    And I understand that is some flexibility, as well. 
Multiple different agencies, especially in law enforcement, 
like to move everyone every 2 or 3 years. There may be an issue 
to say, this person enjoys this particular assignment. Let us 
leave them longer----
    Ms. Jacksta. Mm-hmm.
    Senator Lankford [continuing]. And allow them to be able to 
do that.
    One last thing and then we need to be able to switch to the 
second panel on this.
    Ms. Roberts, there is the flip side of this, as well. I was 
on the U.S. House Committee on Oversight and Government Reform 
(OGR) panel when we actually questioned a gentleman named John 
Beale, who worked for the U.S. Environmental Protection Agency 
(EPA), who had for years received extra retention pay, 
additional pay over and over again to be able to keep him 
because he is such a valuable employee. And then the word came 
out that he had actually claimed that he was a CIA agent and he 
really was not showing up for the EPA and it became this huge 
scandal that over years he had continued to receive retention 
pay as a valued employee, but actually he was scamming the EPA 
for years, lying to them that he is a secret CIA agent. And, 
so, he would leave and be gone for months at a time, saying, I 
am on a secret assignment. Really, he was skipping out from 
work.
    He ended up having a retirement party in 2011, but he 
actually did not retire until 2013. So, for 2 years, he did not 
show up for work and everyone at work assumed he was retired. 
He was actually still getting his paycheck. It was just a 
fiasco.
    So, on the flip side of retention pay is the accountability 
of those that use it. Understand, it is really being used for 
those folks that we really want to keep, not someone who is 
scamming the system. Now, I understand Mr. Beale is an extreme 
example of that. I get that. That is not the norm. But, my 
encouragement to you is not to be able to--you do not have to 
tell me all that. I just bring to you again, that is a good 
tool for us to have. We need to have that tool, but we need to 
also maintain the oversight of how it is used so we do not have 
someone scamming the system. Is that fair?
    Ms. Roberts. Absolutely. Agencies should be reviewing their 
3Rs every year and making sure that they are paying them 
adequately.
    Senator Lankford. Well, he got his retention pay every 
year, and that was not reviewed.
    Ms. Roberts. That is a terrible example.
    Senator Lankford. Well, to say the least.
    So, any other questions, thoughts you have for this panel?
    Senator Heitkamp. No. Thank you.
    Senator Lankford. OK. Thank you very much.
    We are going to take just a moment to break to be able to 
switch the panel.
    [Pause.]
    Gentlemen, thank you. We are going to swear in the 
witnesses.
    Our second panel is William Dougan, who is the President of 
the National Federation of Federal Employees, and Anthony 
Reardon, President of the National Treasury Employees Union.
    Gentlemen, thank you both for being here. As you know, the 
tradition of this Committee, we swear in all witnesses. Would 
you please raise your right hand.
    Do you swear the testimony you are about to give before the 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Reardon. I do.
    Mr. Dougan. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect the witnesses have answered in the affirmative.
    Mr. Reardon, due to your position at the table, you get to 
go first on this one, and then Mr. Dougan we will receive your 
testimony, then we will have some brief questions, as well.

    TESTIMONY OF ANTHONY M. REARDON,\1\ NATIONAL PRESIDENT, 
               NATIONAL TREASURY EMPLOYEES UNION

    Mr. Reardon. Thank you. Chairman Lankford, Ranking Member 
Heitkamp, and Members of the Subcommittee, thank you for 
inviting me to testify today on pay issues affecting the 
Federal workforce.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reardon appears in the Appendix 
on page 58.
---------------------------------------------------------------------------
    As you know, beginning in 2011 and continuing for three 
straight years, Federal employees were subjected to a pay 
freeze. In both 2014 and 2015, Federal employees received pay 
increases of one percent, which were below the amount called 
for under the law. According to Department of Labor data, 
private sector wages have increased 8.3 percent over the last 5 
years, while Federal wages have increased by a total of 2 
percent. No employer can expect to recruit and retain a 
professional and skilled workforce while failing to keep up 
with general pay trends.
    NTEU worked closely with Senators Schatz and Cardin, and 
Representative Gerry Connolly on legislation to provide a 3.8 
percent across-the-board pay raise for 2016. Passing that 
legislation would be a good first step in getting Federal pay 
back on track.
    NTEU believes that the General Schedule, or pay system is 
capable of meeting the needs of both agencies and employees if 
agencies utilize the existing pay flexibilities available to 
them. Within the GS system, agencies are provided with a 
substantial variety of human resource flexibilities and 
authorities, including pay.
    NTEU strongly advocates that agencies should utilize the 
H.R. tools they have been given to reward high-performing 
employees by, for example, providing meaningful performance-
based cash awards and quality step increases. Agencies should 
also use retention and recruitment bonuses to address staffing 
shortages.
    It is simply a myth that the GS system does not allow 
agencies to reward high performance or respond to a changing 
recruitment and retention environment, but these H.R. pay tools 
are just not being used enough, and the primary reason for that 
is a lack of funding.
    A competitive employer must be able to reward excellent 
performance and recruit and retain skilled employees. NTEU is 
concerned that the calls for limits to or the total elimination 
of performance-based awards would turn off the GS system's most 
useful performance management features.
    I want to be clear that agency management should have both 
a justification for and a documentation process for the use of 
these authorities, and Congress certainly has the right to 
scrutinize Executive Branch decisions. But managers need to be 
able to perform their core duties. That is, in the course of 
supervising their employees, they evaluate their employees' 
work and reward for high performance.
    NTEU has the honor of representing over 25,000 Customs and 
Border Protection officers, trade enforcement and agriculture 
specialists stationed at 328 land, sea, and air ports of entry. 
Senator Heitkamp, I know you have been heavily engaged in 
Federal workforce issues in the Bakken region, including 
addressing serious pay gaps that have developed from the recent 
oil and gas boom there. I would like to thank you for your 
interest in CBP issues on the Northern border, where the 
remoteness of these duty stations can at times create unique 
recruitment and retention challenges.
    Currently, there are approximately 300 front-line CBP 
employees at the land ports of entry from Pembina to Portal on 
the North Dakota border with Canada. We greatly appreciate your 
willingness to explore with us ways to make these regions more 
competitive, including the potential use of either special pay 
rates or recruitment and retention bonuses. I look forward to 
our continued work on this issue.
    In closing, while NTEU believes that Federal pay increases 
have been totally inadequate over the last several years, we do 
not believe the problem is the GS system, but the lack of 
agency use of existing pay flexibilities. Agencies must receive 
proper levels of funding to be able to use these flexibilities, 
or they merely exist on paper. If agencies are not adequately 
funded, they simply will be unable to recruit and retain 
talented personnel, which ultimately will only serve to harm 
the American people.
    Thank you, and I would be happy to answer any questions.
    Senator Lankford. Thank you. Mr. Dougan.

TESTIMONY OF WILLIAM R. DOUGAN,\1\ NATIONAL PRESIDENT, NATIONAL 
                FEDERATION OF FEDERAL EMPLOYEES

    Mr. Dougan. Thank you, Chairman Lankford, Ranking Member 
Heitkamp, and Members of the Subcommittee, for inviting me to 
testify. Our union represents 110,000 Federal workers across 
the country working in 35 different Federal agencies and 
departments. Prior to being elected to national office at NFFE, 
I spent 31 years working for the Federal Government. I worked 
primarily in the U.S. Forest Service and spent 22 years 
fighting wildfires.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dougan appears in the Appendix on 
page 64.
---------------------------------------------------------------------------
    The question is, does the Federal pay system have the 
flexibility it needs? I think the answer is, yes, it does. All 
the necessary tools are there for Federal agencies to recruit 
and retain the talented workforce needed to do the business of 
the American people.
    However, does that mean the Federal pay system is working 
well? No, it absolutely does not, and the primary reason the 
system is not working well these days is that the system is so 
completely starved of resources, there is no room for the 
appropriate flexibilities that have been built into the system 
to have their desired effect.
    For example, the GS pay system has locality pay areas 
clustered in metropolitan areas where non-Federal workers earn 
higher salaries and wages so that Federal agencies can compete 
for talent in those areas. This flexibility is necessary and it 
is essential to maintaining the Federal workforce in places 
like New York and San Francisco, but also in places like 
Dayton, Milwaukee, Phoenix, and Raleigh-Durham.
    The problem is that because Federal workers have not been 
given an adequate pay adjustment in over 5 years--Federal 
workers got one percent adjustments the past 2 years and frozen 
pay the 3-years prior to that--there has not been any locality 
pay adjustment of any kind for over half a decade. Instead of 
the GS system working as designed, with each locality pay area 
having its pay scale fluctuate from year to year based on 
market factors, all locality pay areas have been treated the 
same, regardless of whether the wage gap in each of those areas 
has been growing or shrinking. Because of the pay freezes and 
woefully inadequate pay adjustments, nearly all the market-
driven flexibility that was built into the GS pay system has 
ground to a halt.
    A similar problem occurs for hourly wage grade employees. 
Their pay is supposed to be based on prevailing wages, what 
private industry is paying for comparable work in an area. 
There are 131 such wage areas spread out across the country. A 
great deal of effort is taken to survey private employers in 
these areas so that prevailing wages can be determined. Here is 
how the problem occurs.
    Adjustments to the wage grade pay scales are capped at the 
level of adjustment that GS employees in a given area receive. 
As I mentioned, in the last 5 years, Federal employees have 
seen nothing but frozen pay or one percent adjustments and no 
locality pay adjustments of any kind. That means that for blue 
collar Federal workers, frozen pay or a one-percent adjustment 
served as the maximum pay adjustment possible, even if the true 
prevailing wage in the area far exceeded that amount.
    Is it really a prevailing wage when these artificial caps 
severely constrain any upward movement in the pay scale? I 
would argue that it is not truly a prevailing wage at that 
point. Again, nearly all the market-driven flexibility that was 
built into the wage grade pay system has been stopped into its 
tracks.
    For GS and wage grade employees, the Federal pay system 
works if it is used as designed, but it cannot work well when 
being funded so inadequately.
    I greatly appreciate this hearing's focus on flexibility 
and I agree it is a very important topic, but you cannot 
discuss issues related to recruitment and retention in proper 
context without addressing the real elephant in the room, the 
diminishing prospects of being Federal employees in this 
political and economic environment.
    Here is the bottom line. It will not matter what pay 
flexibility exists when people do not want to work for the 
Federal Government any more. There will be no right balance of 
flexibility to strike or combination of tools to give managers 
when people no longer believe a Federal Government job is a 
good job, and that is where we are headed.
    Consider these grim statistics. Federal employees have 
endured $159 billion in targeted cuts over the last 5 years, 
and every year, billions of new cuts are proposed. Federal 
workers are now making an average of 35 percent less than 
workers doing the same jobs in the private sector, and every 
year that Congress gives workers an inadequate adjustment, that 
gap grows larger.
    This has to change. These are the people caring for our 
veterans, keeping our military ready, guarding our borders, 
keeping our communities safe from wildfire and other disasters, 
and performing countless other duties essential to the American 
people. We cannot keep shortchanging these dedicated Americans 
and disrespecting their service and expect it not to have 
seriously negative consequences. Federal employees need a raise 
and they need and deserve the respect of every man and woman 
serving in Congress.
    I thank the Subcommittee for holding this hearing and would 
be happy to answer any questions you might have.
    Senator Lankford. I defer to the Ranking Member for opening 
questions.
    Senator Heitkamp. Thank you so much, Mr. Chairman, and I 
thank you so much for your testimony. I think we hear it loud 
and clear, which is the discussion point that we are trying to 
get at in this hearing is, is there flexibility? Are there 
tools? Do we know what those tools are? Do agencies engage and 
use those tools to address workforce shortages and 
discrepancies in terms of market? What you are saying is, 
everybody knows what these tools are. There is flexibility. But 
there are not the resources to basically deploy that 
flexibility because the restrictions in pay, basically lock you 
out.
    So, I mean, that is a tough issue for us here, and I think 
as we look forward and we think about what it is that Federal 
employees do--and let us take Customs and Border Protection or 
Border Patrol. To you, Mr. Reardon, when you look at the 
challenges of bringing people to the border, do you hear much 
about pay, or do you hear about remoteness? What are the 
reasons why employees give on why they do not want to work in 
Portal as opposed to down in McAllen?
    Mr. Reardon. Well, I think, Senator, to respond to the 
question, I think what we primarily hear from our CBP officers 
and those who work for CBP is really about staffing shortages. 
And I think that creates a real dilemma for people, because 
with those staffing shortages come a wide variety of other 
workplace problems.
    Senator Heitkamp. Challenges.
    Mr. Reardon. If I could, I did want to sort of touch on 
something, though, that you had just said about whether or not 
everybody is familiar with all of the flexibilities. I think, 
generally speaking, people are aware of the flexibilities. 
Unfortunately, I think even what we heard from the first panel 
a little bit is that not all of the H.R. executives, I think, 
are fully conversant all the time about the various scenarios 
where it might make sense to use the various flexibilities.
    And, so, one of the things that I would urge and that NTEU 
fully supports is that--I hear loud and clear that OPM is doing 
some work on trying to make sure that H.R. folks are educated. 
But I also think it is very important that they also provide 
some real life scenarios so that these H.R. folks are not 
worrying about how do I solve this on my own. They actually 
have some tools in front of them so that they can see some real 
life workplace scenarios that they will know up front that, 
hey, there are flexibilities that I can use in this situation.
    Senator Heitkamp. Can I just expand on something you said, 
which is kind of a self-fulfilling prophecy, which is, look, 
what you do hear from them is because of staffing shortages, 
they do not want to go where they are the only one or where 
they are expected to do the work of two, three people. So, that 
is kind of a self-fulfilling prophecy. We cannot recruit 
because we do not have enough personnel.
    Mr. Reardon. Well, that is absolutely correct. And, I think 
when you look at CBP, their workplace staffing model that they 
have for CBP officers right now suggests that there are on the 
order of 2,700 additional CBP officers that are needed 
nationwide.
    And, so, I would really underscore for this Subcommittee 
that not only is that a problem in terms of the staffing 
shortages we have already talked about, but it is also a very 
important security issue for this country and it is an 
important economic issue in terms of the ability for this 
country to get the goods and services that we bring into the 
country. I think that is important.
    Senator Heitkamp. I think in my opening comments I 
mentioned the critical economic impact of not having people at 
the borders, basically long lines, inaccessibility in terms of 
trade.
    But, I want to get to something especially as it relates to 
Customs and Border Protection and Border Patrol. Because of 
this massive influx of new positions, taking a look at building 
greater border security, one of the things we heard in the 
earlier panel is the length of time that it takes to do 
background checks. Do you have any input on background checks, 
the kinds of things, security checks, how we can speed that 
process up, because I know that there is a great deal of 
concern about hiring people and then doing background checks 
later on, especially in a law enforcement capacity, so----
    Mr. Reardon. Senator, thank you. Let me just first say that 
NTEU and I completely agree that employees that are hired into 
CBP and into other Federal agencies, it is important that their 
backgrounds are checked, because we do not want to have the 
front page news stories that sometimes we end up having in 
these situations.
    In terms of, things that I would suggest that we could do 
to speed up the process, I can honestly tell you that I am 
certainly not an expert in the Federal hiring processes, and so 
how long it should take to go through the process, I am just 
probably not the best person to ask that question of. But, I 
will tell you this, that I will take that back and I will think 
about it and talk to my folks and see if we can come up with 
some suggestions and I would get those to you.
    Senator Heitkamp. Well, I really believe that what you said 
is exactly right. You do not want to go where you are all 
alone, so no one applies for those positions, no one wants to 
be there, and we end up just spiraling downward in terms of 
getting staffing. And, a lot of that is related to the 
difficulty. I mean, if you have a job with the local chief of 
police all lined up, as Senator Lankford talked about, you are 
going to move to that job. You are not going to wait the 3, 4 
months. And then you feel an obligation, as most people do when 
they take a new job, to fulfill kind of a personal commitment.
    I want to turn to locality pay. Mr. Dougan, I saw you, as 
we were talking about locality pay--this has been an awareness 
that I have built working through these problems in North 
Dakota, the difficulty of locality pay. Even if people pursue 
it, then we have problems funding it. But, in North Dakota, it 
seems to me that we should have been able to make a case for 
locality pay. When your rents are equal to New York City rents, 
you ought to be able to make the case for locality pay.
    I realize, as Senator Lankford said, these things will come 
up and down and that flexibility. But, can you comment on or 
expound on the difficulties of locality pay in a rural setting 
like Oklahoma, where they have experienced the same kind of oil 
boom that we have in North Dakota?
    Mr. Dougan. I think there are a couple challenges. One, 
locality pay, as I mentioned in my testimony, primarily 
centers--or has centered, at least historically, to this point 
in time, has centered around metropolitan areas where the pay 
rates between the private sector and the Federal Government 
essentially are great enough that it demands that we make some 
sort of a pay adjustment for the Federal sector in order for 
the government to be able to be effective in recruiting and 
retaining a workforce.
    But, the principles are the same and should apply in a 
rural setting, as well, because, really, when you boil it all 
down, the fact of the matter is that if the costs of goods and 
services in living in communities in a rural area versus a 
metropolitan area are such that you cannot afford to live there 
because of the salary that you are making, then that condition 
should--make it possible to consider having a locality pay 
there.
    Senator Heitkamp. Why do you think there is such hesitancy 
from the Federal Salary Council to actually look at broadening 
locality pay adjustments?
    Mr. Dougan. Well, the process at the Federal Salary 
Council--I was a member of the Federal Salary Council for the 
first years of my term as President, and I have to tell you 
that it is a very cumbersome process. It takes a long time. 
There are a lot of hoops that have to be jumped through on the 
part of both the State and the local communities and 
metropolitan areas. You have to get the local government 
engaged. You have to get the State government engaged. They 
make presentations. They collect data. And, it is very 
cumbersome and it can take, like, 2 or 3 years to even reach 
the point where they are going to make a decision.
    Senator Heitkamp. From my standpoint, we ended up doing a 
work around, what I would call a work around in terms of 
special pay rates when we did not really address the real 
issue, which is we have a locality pay problem in the entire 
Federal workforce. And as a result, when you look at it, what 
happened to us is we have to go around to each one of these 
agencies and get them fully engaged as opposed to, say, across 
the board the Federal workforce is stressed in the Bakken and 
we need to make pay adjustments. And, so, it was just so 
disappointing, I think, for me to realize that. I could make an 
intellectual case for a locality pay adjustment, but there just 
was not the ease in the system of getting this done.
    And, I would be really interested in your further thoughts 
on how we, having served on the Federal Salary Council, how we 
could streamline that process or make it more available so that 
people do not knee-jerk. Really? Williston, North Dakota? And, 
we got that. I mean, it is not New York. And I am, like, well, 
then rent an apartment for under $2,500 in Williston, North 
Dakota, which was the going rate. And we are still, for a two-
bedroom apartment in Williston--I talked to the mayor 
yesterday--it is $1,500.
    So, even though we have seen oil prices decline and 
activity ebb somewhat, we still have a huge need to treat--and 
as a result, when we looked at this yesterday in Indian 
Affairs, not having that Federal workforce--we have a great 
story to tell with DOD stepping up--but not having the Federal 
workforce has cost the tribes millions of dollars, has caused 
million of dollars' worth of headaches for the drilling 
industry, and these are jobs that are critical to continuing 
this effort to produce oil in our country and become energy 
secure.
    So, I am curious about how we can improve the Federal 
Salary Council process on locality pay.
    Mr. Dougan. I think there are opportunities to look at 
expediting the data collection part that has to happen on the 
front end before a proposal ends up in front of the Federal 
Salary Council. There is a lot of data in terms of costs of 
goods and services and wages that takes place in order for that 
locality area to make its case before the Federal Salary 
Council.
    Senator Heitkamp. Have you ever seen any of these locality 
pay decisions come on and off? Is that part of the resistance, 
that it is, like, if you give a locality pay adjustment, it 
seems more permanent rather than doing a look-back and 
adjusting it on and off?
    Mr. Dougan. Well, I think--again, I go back to my 
testimony. I mean, the basic principle of a locality pay, it is 
a market-based system----
    Senator Heitkamp. Yes.
    Mr. Dougan [continuing]. So we understand that when the 
economics are such in a locality area that the cost of living 
is high, then the locality pay is going to reflect that. You 
are going to have a higher locality pay. When and if, to use 
your example in North Dakota, when and if the oil dries up and 
the prices of goods and services shrink, then there would be, 
or should be, a corresponding shrinkage in the amount of 
locality pay that would be paid.
    So, for me, I think there is a certain hesitancy on the 
part of the Federal Salary Council, but even more than the 
Federal Salary Council, the President's Pay Agents and the 
others that make the decision on whether the locality pay is 
actually going to be instituted or not, there is this notion 
that once it is there, you never get rid of it. Well, there is 
really no need to get rid of it if it is market driven, because 
the pay adjustments will go up and down based on what is 
happening in terms of the costs of goods and services within 
that area.
    Senator Heitkamp. I think it is one of the problems that we 
have with the Federal Government across the board, which is 
one-size-fits-all, and we come from very diverse kinds of 
backgrounds, and if you take a look at the VA, staffing the VA 
with surgeons in Fargo may be much more difficult than staffing 
the VA with surgeons in Minneapolis, at their VA. And, so, we 
have to--that is a real concern for me, that it really takes a 
United States Senator to pound the table a little bit so that 
we can get opportunities to keep a workforce in Minot. It 
should not be that way. There should be something within the 
system that treats Federal employees a little differently. So, 
we will continue to think about this.
    Thank you very much, Mr. Chairman.
    Senator Lankford. Gentlemen, thank you for your advocacy 
and for standing up and getting a chance to speak out for 
folks. You are speaking out for millions of folks that are 
serving our Nation every single day, and I want you to know I 
appreciate that very much.
    All these are hard decisions, as Senator Heitkamp had 
mentioned, as we deal with $430 billion worth of deficit this 
year and all the realities that face our Nation with $18.5 
trillion in total debt. These are very real areas that affect 
all of our families, but especially the Federal families. So, 
we understand full well the difficulty of these decisions, 
whether it is the President's recommendation to raise Federal 
salaries by one percent or whether it is Congress working 
through it or different members making recommendations, we all 
get the dynamics. But, there are some unique challenges.
    I would love to be able to sit and visit for a while. I am 
getting word that at 11, which was 4 minutes ago, they are 
calling votes. I am listening for the bells here at this point, 
but I understand it is coming at us in a hurry.
    I do want to make a quick statement here. Both of you have 
mentioned the GS schedule and that you think the GS schedule is 
adequate. It is just the funding behind it in the different 
agencies to be able to give the different managers the ability 
to be able to do some merit increases and such within the GS 
structure. Are there any recommendations that you would make to 
the GS structure or at this point, are both of you content to 
say, it is fine, we just need to add funds behind it?
    Mr. Reardon. Mr. Chairman, thank you. I would say that I do 
believe the GS system-- the system, not just the General 
Schedule, but including all of the flexibilities--I think it is 
a system that is very good and works for the American people 
and for Federal employees. But, I do believe that we have to 
ensure that there is available funding for these flexibilities, 
because if we do not really use all of the flexibilities that 
are available in concert with the GS schedule itself, then I 
think we run into the problems that we have seen. So, yes, I do 
think as long as we use the workplace flexibilities, I do 
believe it will work.
    Senator Lankford. OK. Thank you. Mr. Dougan.
    Mr. Dougan. I would echo what Mr. Reardon said. I believe 
the system works. I think the system is fine. The challenge 
that we have is twofold. No. 1, we have to ensure that when pay 
adjustments are given to Federal employees that we actually 
have the money to make good on those, so that we can allow the 
locality pay marketplace fluctuations to occur and to fund that 
system so that it works properly.
    With respect to the other flexibilities that we have, like 
recruitment, retention, relocation, I think that those are good 
tools. I think the tools work. The main problem that we have 
there, again, is one that in times where budgets are tough and 
lean for Federal agencies, often, we will see the first 
things--if you have to start looking for places to cut, these 
types of incentives are often looked at first by agencies to 
either reduce or to do away with altogether, because they have 
to ensure that they continue to have to pay the workforce and 
anything over and above that, in some cases, in a very lean 
budget, is looked at as a luxury.
    Senator Lankford. Gentlemen, thank you for being here and 
for your testimony, your written testimony and your 
preparation, as well.
    Before we adjourn, I would like to announce the 
Subcommittee will hold a joint hearing with the House 
Subcommittee on Oversight and Government Management on the 
protection of sensitive personal information on government 
databases Tuesday, October 27. That is next week.
    That concludes today's hearing. I would like to thank our 
witnesses for their testimony. The hearing record will remain 
open for 15 days for the submission of statements and questions 
for the record.
    With that, this hearing is adjourned.
    [Whereupon, at 11:08 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
